UNITED STATES SUPREME COURT
CERTIFICATE OF COMPLIANCE

LOUIS TAFUTO
Plaintiff,
vs.

Donald J. Trump, Donald J Trump for President Inc:
MICHAEL RICHARD PENCE,
KELLYANNE CONWAY,
REPUBLICAN NATIONAL COMMITTEE,
REINHOLD RICHARD PRIEBUS
AKA REINCE PRIEBUS,
Defendants

j

,

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 2,827 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury that
the foregoing is true and correct.

\

DATtr

Louis Tafuto, Petitioner

